      Department of Homeland Security



     Review of Costs Invoiced by the Spokane Airport 

      Board for Closed Circuit Television Cameras at 

       Spokane International Airport Under Other 

             Transaction Agreement Number 

          HSTS04-09-H-REC304 Awarded by the 

         Transportation Security Administration 





            American Recovery and Reinvestment Act of 2009



OIG-12-76                                                    April 2012

               ~_
                ,'_:'.::;
                 .~   ~~
                            OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                               Washington, DC 205281 www.oig.dhs.gov



                               APR 3 0 2012

MEMORANDUM FOR:              Kelly Hoggan
                             Assistant Administrator
                             Office of Security Capabilities
                             Transportation Security Administration

FROM:                        Anne L Richards ~r
                             Assistant Inspector General for Audits

SUBJECT:                     Review of Costs Invoiced by the Spokane Airport Board for
                             Closed-Circuit Television Cameras at Spokane International
                             Airport Under Other Transaction Agreement Number
                             HSTS04-09-H-REC304 Awarded by the Transportation
                             Security Administration

Attached for your information is our final letter report entitled, Review of Costs Invoiced
by the Spokane Airport Board for Closed-Circuit Television Cameras at Spokane
International Airport Under Other Transaction Agreement Number HSTS04-09-H-REC304
Awarded by the Transportation Security Administration. Since the report contains no
recommendations to Transportation Security Administration management, we did not
solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger LaRouche, Audit Director; Karl Gallagher,
Audit Manager; and Ashley Smith, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


 Background
 On February 17, 2009, Congress enacted thefAmericanfRecoveryfandfReinvestmentfActf
 off2009,fas amendedf(Recovery Act) to preserve and create jobs, promote economic
 recovery, and invest in transportation, environmental protection, and other infrastructure
 that will provide long-term economic benefits. The Recovery Act appropriated $1 billion
 to the Transportation Security Administration (TSA) for “procurement and installation of
 checked baggage explosive detection systems and checkpoint explosives detection
 equipment….” According to TSA, $61,827,702 of that amount was awarded to 14
 airport organizations for the advanced surveillance program.

 Under Other Transaction Agreement (OTA) No. HSTS04-09-H-REC304, as modified, TSA
 agreed to reimburse the Spokane Airport Board (Airport Board) for the allowable,
 allocable, and reasonable costs up to $1,950,696 to support the design, installation, and
 operation of closed-circuit television cameras (CCTVs) at the Spokane International
 Airport (Airport). Under the OTA, the Airport Board was required to install CCTVs
 throughout the Airport to monitor activities at various locations, including curbside
 ticketing, ticket counter baggage drop off, and TSA work stations.

 The OTA, signed on June 25, 2009, specifies a project period from June 25, 2009,
 through December 25, 2010, and requires the Airport Board to submit invoices for
 reimbursement of project costs to TSA. Reimbursement for eligible project costs is
 based on the scope of the agreement; and Office of Management and Budget (OMB)
 Circular A-87, Revised, CostfPrinciplesfforfState,fLocal,fandfIndianfTribalfGovernments.ff
 The CCTV installation was completed on December 20, 2010, with total invoiced costs of
 $1,950,696.

 The agreement also requires the Airport Board to comply with the OMB Circular A-133,
 Revised, AuditsfoffStates,fLocalfGovernments,fandfNon-ProfitfOrganizations,fand
 Recovery Act provisions to submit quarterly recipient reports to the Federal
 Government, and pay prevailing wages as determined by the Secretary of Labor under
 40 U.S.C. Chapter 31, Subchapter IV.

 The objective of this audit was to determine whether costs invoiced by the Airport
 Board are allowable, allocable, and reasonable according to the funding agreement and
 applicable Federal requirements.




www.oig.dhs.gov                                2                                   OIG-12-76
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


 Results of Review
 We determined that invoiced costs of $1,950,696 for the CCTV design and installation
 were allowable, allocable, and reasonable. We also concluded that the Airport Board
 complied with the requirements for submitting quarterly reports, for paying prevailing
 wages, and for reporting project status to the Federal Government.




www.oig.dhs.gov                               3                                   OIG-12-76
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


 Appendix A
 Objective, Scope, and Methodology
 The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
 established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
 to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
 special reports prepared as part of our oversight responsibilities to promote economy,
 efficiency, and effectiveness within the Department.

 The objective of this audit was to determine whether costs invoiced by the Airport
 Board are allowable, allocable, and reasonable according to the funding agreement and
 applicable Federal requirements. Our audit covered invoiced costs of $1,950,696 for the
 period June 25, 2009, through December 20, 2010. This project is completed, and as
 such this amount represents the total reimbursable and invoiced amount.

 Our tests and procedures included the following:

         •	   Reviewing TSA project files, the OTA and modifications, the Recovery Act,
              and TSA and OMB guidelines.
         •	   Interviewing TSA officials to gain an understanding of the project and project
              management.
         •	   Examining the Airport Board accounting records supporting the amounts
              invoiced.
         •	   Interviewing Airport Board officials to obtain an understanding of project
              management, accounting, procurement, and invoicing.
         •	   Inspecting the CCTV project.
         •	   Reviewing the audit working papers of the Washington State Auditor’s Office,
              which performed the Single Audit of the Airport Board for the fiscal year
              ending December 31, 2010.

  The Single Audit of the Airport Board was performed by the Washington State Auditor’s
  Office and included Recovery Act–funded CCTV project costs totaling $1,948,466 (or
  almost 100% of invoiced costs). The Single Audit report classified the CCTV project as a
  major program. The report did not identify any questionable costs or compliance
  issues related to the CCTV project or any deficiencies in internal controls that were
  identified as material weaknesses that would affect the CCTV project.

 We also tested Airport Board records supporting costs invoiced to determine
 compliance with OMB Circular A-87, Revised, and with other terms and conditions of



www.oig.dhs.gov                                 4	                                  OIG-12-76
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


 the agreement. We considered Airport Board internal controls over the administration
 of TSA funds in determining our audit procedures.

 We conducted this performance review between January 2012 and March 2012,
 pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
 accepted government auditing standards. Those standards require that we plan and
 perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
 basis for our conclusions based upon our audit objectives. We believe that the evidence
 obtained provides a reasonable basis for our findings and conclusions based upon our
 audit objectives.




www.oig.dhs.gov                              5                                   OIG-12-76
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


 Appendix B
 Report Distribution
 Department of Homeland Security

 Secretary
 Deputy Secretary
 Chief of Staff
 Deputy Chief of Staff
 General Counsel
 Executive Secretary
 Director, GAO/OIG Liaison Office
 Assistant Secretary for Office of Policy
 Assistant Secretary for Office of Public Affairs
 Assistant Secretary for Office of Legislative Affairs
 Acting General Manager, Checked Baggage Division/Program
 Manager, Electronic Baggage Screening Program, TSA
 Director of Acquisition Policy, TSA
 Audit Liaison Official, TSA
 Departmental Recovery Act Coordinator

 Office of Management and Budget

 Chief, Homeland Security Branch
 DHS OIG Budget Examiner

 Congress

 Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             6                            OIG-12-76
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
